HHS/OIG-Audit--"Review of Regional Administrative Support Center's Procedures for Recording, Maintaining and Reconciling Sustained Audit Disallowances in Region IV, (A-04-91-00001)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Regional Administrative Support Center's Procedures for Recording, Maintaining and Reconciling Sustained
Audit Disallowances in Region IV," (A-04-91-00001)
March 31, 1992
Complete
Text of Report is available in PDF format (660 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the Region IV Regional Administrative Support Center's (RASC)
procedures for recording, maintaining and reconciling sustained audit disallowances. We identified weaknesses in the debt
collection process used by the RASC which allowed $1.1 million in sustained audit disallowances to go without collection
actions. We also identified interest charges, penalty charges and administrative costs that should have been accrued on
recorded accounts receivable. The RASC generally agreed with our findings and recommendations for corrective actions.